     Department of Homeland Security

     ��������������������������


Office of Health Affairs' Management Letter for FY 2013 

            DHS Financial Statements Audit





OIG-14-78                                     April 2014

                         OFFICE OF INSPECTOR GENERAL
                             Department of Homeland Security
                              Washington, DC 20528 / www.oig.dhs.gov



                                     APR 23 2014

MEMORANDUM FOR:	             Michael Murfee
                             Budget and Finance Branch
                             Office of Health Affairs
                           for
FROM:	                       Anne L. Richards
                             Assistant Inspector General for Audits

SUBJECT:	                    Office of Health !ffairs’ Management Letter for FY 2013
                             DHS Financial Statements Audit

Attached for your information is our final report, Office of Health !ffairs’ Management
Letter for FY 2013 DHS Financial Statements Audit. This report contains one comment
and recommendation related to internal control deficiencies that were not required to
be reported in the Independent !uditors’ Report on DHS’ FY 2013 Financial Statements
and Internal Control over Financial Reporting. Internal control deficiencies which are
considered significant deficiencies were reported, as required, in the Independent
!uditors’ Report, dated December 11, 2013, which was included in the Department of
Homeland Security’s (DHS) fiscal year (FY) 2013 Agency Financial Report. We do not
require management’s response to the recommendations.

We contracted with the independent public accounting firm KPMG LLP (KPMG) to
conduct the audit of DHS FY 2013 financial statements and internal control over
financial reporting. The contract required that KPMG perform its audit according to
generally accepted government auditing standards and guidance from the Office of
Management and Budget and the Government Accountability Office. KPMG is
responsible for the attached management letter dated January 15, 2014, and the
conclusions expressed in it.

Please call me with any questions, or your staff may contact Mark Bell, Deputy Assistant
Inspector General for Audits, at (202) 254-4100.


Attachment
                                 KPMG LLP
                                 Suite 12000
                                 1801 K Street, NW
                                 Washington, DC 20006




January 15, 2014


Office of Inspector General
U.S. Department of Homeland Security, and
Chief Financial Officer
U.S. Department of Homeland Security, Office of Health Affairs
Washington, DC

Ladies and Gentlemen:

We have audited the financial statements of the U.S. Department of Homeland Security (DHS or
Department) for the year ended September 30, 2013 (referred to herein as the “fiscal year (FY) 2013
financial statements”), and have issued our report thereon dated December 11, 2013. In planning and
performing our audit of the financial statements of DHS, in accordance with auditing standards
generally accepted in the United States of America and Government Auditing Standards, we
considered internal control over financial reporting (internal control) as a basis for designing our
auditing procedures for the purpose of expressing our opinion on the financial statements. In
conjunction with our audit of the financial statements, we also performed an audit of internal control
over financial reporting in accordance with attestation standards established by the American Institute
of Certified Public Accountants.
The Office of Health Affairs (OHA), is a component of DHS. During our audit, we noted certain
matters involving internal control and other operational matters that are presented for your
consideration. These comments and recommendations, all of which have been discussed with the
appropriate members of management, are intended to improve internal control or result in other
operating efficiencies. These matters are summarized in the Table of Financial Management
Comments on the following pages. The disposition of each internal control deficiency identified during
our FY 2013 audit – as either reported in our Independent Auditors’ Report, or herein – is presented in
Appendix A.
Our audit procedures are designed primarily to enable us to form an opinion on the financial statements
and on the effectiveness of internal control over financial reporting, and therefore may not bring to
light all weaknesses in policies or procedures that may exist. We aim, however, to use our knowledge
of OHA’s organization gained during our work to make comments and suggestions that we hope will
be useful to you.
We would be pleased to discuss these comments and recommendations with you at any time.
The purpose of this letter is solely to describe comments and recommendations intended to improve
internal control or result in other operating efficiencies. Accordingly, this letter is not suitable for any
other purpose.
Very truly yours,




                                 KPMG LLP is a Delaware limited liability partnership,
                                 the U.S. member firm of KPMG International Cooperative
                                 (“KPMG International”), a Swiss entity.
                                       Office of Health Affairs
                             Table of Financial Management Comments

                                         September 30, 2013




TABLE OF FINANCIAL MANAGEMENT COMMENTS (FMC)


Comment
Reference   Subject                                                                      Page

FMC 13-01   Undelivered Orders                                                            2



                                          APPENDIX

Appendix    Subject                                                                      Page

A           Crosswalk – Financial Management Comments to Active Notices of Finding and    3
            Recommendation (NFRs)




                                                  1

                                      Office of Health Affairs
                                  Financial Management Comments

                                        September 30, 2013




FMC 13-01 – Undelivered Orders (Notice of Finding and Recommendation No. Office of Health
Affairs (OHA) 13-01)

       Controls were not operating effectively to ensure undelivered orders (UDO) were supported by
       appropriate documentation, and were properly classified as valid or invalid. Specifically, we
       noted one instance where the UDO was incorrectly assigned a Status 3 (invalid UDO), where it
       should have been assigned a Status 1 (valid UDO).

       Recommendation:
       We recommend that OHA reinforce existing policies including training on the various UDO
       classifications to ensure that UDOs are assigned the correct status when the UDO verification and
       validation analysis is performed.




                                                  2

                                                                                                              Appendix A
                                       Office of Financial Management
                         Crosswalk - Financial Management Comments to Active NFRs
                                             September 30, 2013


                                                                                                   Disposition1
                                                                                                  IAR                 FMC
              NFR
Component                Description                                                    MW         SD        NC       No.
              No.
OHA           13-01      Undelivered Orders                                                                          13-01


1
 Disposition Legend:
IAR	       Independent Auditors’ Report dated December 11, 2013
FMC	       Financial Management Comment
MW	        Contributed to a Material Weakness at the Department level when combined with the results of all other components
SD	        Contributed to a Significant Deficiency at the Department level when combined with the results of all other
          components
NC	        Contributed to Non-Compliance with laws, regulations, contracts, and grant agreements at the Department level when
          combined with the results of all other components
NFR	       Notice of Finding and Recommendation

Cross-reference to the applicable sections of the IAR:
A         Financial Reporting
B         Information Technology Controls and Financial Systems Functionality
C         Property, Plant, and Equipment
D         Budgetary Accounting
E         Entity-Level Controls
F         Liabilities
G         Grants Management
H         Custodial Revenue and Drawback
I         Federal Managers’ Financial Integrity Act of 1982 (FMFIA)
J         Federal Financial Management Improvement Act of 1996 (FFMIA)
K         Single Audit Act Amendments of 1996
L         Antideficiency Act, as amended (ADA)




                                                             3

                              OFFICE OF INSPECTOR GENERAL
                                  Department of Homeland Security


   Appendix A
   Report Distribution
   Department of Homeland Security

   Secretary
   Deputy Secretary
   Chief of Staff
   Deputy Chief of Staff
   General Counsel
   Executive Secretary
   Director, GAO/OIG Liaison Office
   Assistant Secretary for Office of Policy
   Assistant Secretary for Office of Public Affairs
   Assistant Secretary for Office of Legislative Affairs
   Chief Privacy Officer

   Office of Health Affairs

   Assistant Secretary
   Budget and Finance Branch
   Audit Liaison

   Office of Management and Budget

   Chief, Homeland Security Branch
   DHS OIG Budget Examiner

   Congress

   Congressional Oversight and Appropriations Committees, as appropriate


   �




www.oig.dhs.gov                                                            OIG-14-78
ADDITIONAL INFORMATION

To view this and any of our other reports, please visit our website at: www.oig.dhs.gov.

For further information or questions, please contact Office of Inspector General (OIG)
Office of Public Affairs at: DHS-OIG.OfficePublicAffairs@oig.dhs.gov, or follow us on
Twitter at: @dhsoig.

OIG HOTLINE

To expedite the reporting of alleged fraud, waste, abuse or mismanagement, or any
other kinds of criminal or noncriminal misconduct relative to Department of Homeland
Security (DHS) programs and operations, please visit our website at www.oig.dhs.gov
and click on the red tab titled "Hotline" to report. You will be directed to complete and
submit an automated DHS OIG Investigative Referral Submission Form. Submission
through our website ensures that your complaint will be promptly received and
reviewed by DHS OIG.

Should you be unable to access our website, you may submit your complaint in writing
to:

       Department of Homeland Security 

       Office of Inspector General, Mail Stop 0305 

       Attention: Office of Investigations Hotline 

       245 Murray Drive, SW 

       Washington, DC 20528-0305 


You may also call 1(800) 323-8603 or fax the complaint directly to us at
(202) 254-4297.

The OIG seeks to protect the identity of each writer and caller.
